No. 19-1189

IN THE

Supreme Court of the United States
B.P. P.L.C., ET AL., PETITIONERS
v.
MAYOR & CITY COUNCIL OF BALTIMORE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE FOURTH CIRCUIT
SUPPLEMENTAL BRIEF OF RESPONDENT
CERTIFICATE OF COMPLIANCE

I, Victor M. Sher, counsel of record for respondent and a member in good
standing of the bar of this Court, certify that the Supplemental Brief of Respondent
submitted on this day in the above-captioned case contains 922 words, excluding the
parts of the opposition that are exempted by Rule 33.1(d).

Dated: July 22, 2020

/s/ Victor M. Sher
Victor M. Sher

1

